No:
IN THE SUPREME COURT OF THE UNITED STATES
LAMAR JOHNSON,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Sup. Ct. R. 39.1, petitioner Lamar Johnson requests leave to file
the accompanying petition for writ of certiorari without prepayment of costs and to
proceed in forma pauperis. Petitioner was previously represented by the Federal
Public Defender for the Northern District of California, whom a Northern District of
California magistrate judge appointed pursuant to 18 U.S.C. § 3006A(a)(1)(A).
Therefore, under Rule 39.1 and 18 U.S.C. § 3006A(d)(7), Petitioner has not attached
the affidavit required by 28 U.S.C. §§ 1746 and 1915(a).

Dated: February /7172021

STEVEN G. KALAR
ral Public Defend

ROBIN PACKEL*
Assistant Federal Public Defender

* Counsel of Record
1301 Clay Street, Suite 1350N
Oakland, CA 94612
(510) 637-3500
robin_packel@fd.org

la

